<html>
<title> - INTER-TRIBAL TIMBER COUNCIL'S INDIAN FOREST MANAGEMENT ASSESSMENT TEAM</title>
<body><pre>[Senate Hearing 108-483]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-483

INTER-TRIBAL TIMBER COUNCIL'S INDIAN FOREST MANAGEMENT ASSESSEMENT TEAM 
                                 REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

  ASSESSING THE EFFECTIVENESS AND SUCCESS OF TRIBAL FORESTRY PRACTICES

                               __________

                             MARCH 30, 2004
                             WASHINGTON, DC

                    U.S. GOVERNMENT PRINTING OFFICE
93-009                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Colegrove, Nolan, president, Inter-Tribal Timber Council, 
      Portland, OR...............................................     4
    Gordon, John, Interforest, LLC, Branford, CT.................     6
    Martin, Aurene, principal deputy assistant secretary, Indian 
      Affairs, Department of the Interior, Washington, DC........     2
    Smith, Hon. Gordon, U.S. Senator from Oregon.................     1

                                Appendix

Prepared statements:
    Campbell, Hon. Ben Nighthorse, Senator from Colorado, 
      chairman, Committee on Indian Affairs......................    13
    Colegrove, Nolan.............................................    14
    Gordon, John.................................................    17
    Martin, Aurene...............................................    20

 
 INTER-TRIBAL TIMBER COUNCIL'S INDIAN FOREST MANAGEMENT ASSESSMENT TEAM

                              ----------                              


                        TUESDAY, MARCH 30, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 a.m. in room 
485, Senate Russell Building, Hon. Gordon Smith (acting 
chairman of the committee) presiding.
    Present: Senator Smith.

    STATEMENT OF HON. GORDON SMITH, U.S. SENATOR FROM OREGON

    Senator Smith. Good morning.
    The purpose of today's hearing is to present a forum for 
the second Indian Forest Management Assessment Team, a report 
on the state of Indian forests and forestry. The recently 
published report does an excellent job of assessing the 
effectiveness and success of tribal forestry practices. I hope 
this will shed light on the role that American Indian tribes, 
the Bureau of Indian Affairs [BIA], and the tribal consortiums 
play in the management of 18 million acres of forest land held 
in trust.
    The Inter-Tribal Timber Council [ITC], is a nonprofit 
nationwide consortium of Indian tribes, Alaska native 
corporations, and individuals dedicated to improving the 
management of natural resources of importance to Native 
American communities and represents more than 90 percent of the 
forest land held in trust. The Secretary of the Interior 
contracted the ITC for the second time to oversee this 
assessment. The ITC turned to a group of nationally recognized 
experts, including many of the same individuals from the first 
report, to complete the second IFMAT report. The IFMAT II 
report assesses eight tasks specified in the National Indian 
Forest Resource Management Act. Among these is an in-depth 
analysis of management practices, a survey of the condition of 
Indian forest lands, and a recommendation for any reforms.
    The IFMAT report describes the substantial progress made 
toward sustainability in Indian forests since the first report; 
however, significant gaps still remain. Today's hearing 
highlights the progress made in the last 10 years since the 
last IFMAT report. We'll also hear suggestions on how to help 
tribal forests reach their full potential.
    Finally, it is important to note that the ITC and BIA 
forest programs have worked together to make the forestry 
program one of the best in the Bureau, despite the program's 
limited staffing. The two organizations work closely together, 
and BIA attends all ITC Board meetings.
    More recently the ITC has been working with the U.S. Forest 
Service to improve relations there, and has also established 
relations with the National Association of State Foresters. 
Thus, Indian forest management is an excellent example of the 
benefits of government-to-government cooperation.
    I thank all the witnesses for appearing before the 
committee today and look forward to their testimony.
    I'm going to also enter Senator Ben Nighthorse Campbell's 
statement into our record.
    [Prepared statement of Senator Campbell appears in 
appendix.]
    Senator Smith. If I can ask our witnesses that they hold 
their testimony to 5 minutes. We have another hearing after 
this on the Coos Forest issue.
    Ms. Martin, we'll begin with you and Mr. Colegrove to 
follow, and finally we'll hear from Dr. Gordon. We thank you 
all.
    Ms. Martin.

    STATEMENT OF AURENE MARTIN, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY, INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Ms. Martin. Thank you. Good morning, Mr. Chairman. My name 
is Aurene Martin, and I am the principal assistant deputy 
secretary for Indian Affairs at the Department of the Interior. 
I'd like to thank you for the opportunity to provide the 
Department's views on the Indian Forest Management Report.
    There are approximately 17.9 million acres of forest land 
in Indian country, of which 5.6 million acres are classified as 
commercial timber land and 3.5 million acres are commercial 
woodland. Most of the economic return derived from these lands 
comes from the industrial harvest of commercial timber land, 
with the northwest region accounting for 70 percent of the 
harvested timber volume, and the midwest region with 13.5 
percent of the harvested timber volume.
    The National Indian Forest Resources Management Act of 1990 
directs the Secretary of the Interior to obtain an independent 
assessment of the status and management of Indian forests every 
10 years. The first such report, commonly referred to as IFMAT 
I, was provided to Congress in 1993 and represents the status 
of Indian forests and forest management as of 1991. IFMAT I 
identified four areas in need of improvement for the management 
of Indian forests. There was a gap between tribal goals for 
Indian forests and management of those forests as applied. 
There was a disparity in funding provided to Indian forest 
management programs as compared to other similar Federal 
programs. There was a lack of coordinated resource planning and 
management. And finally there was a need to set and oversee 
trust standards for Indian forestry programs.
    IFMAT I was developed by a group of nationally recognized 
forestry experts under a contract funded by the Bureau of 
Indian Affairs with the Inter-Tribal Timber Council. The same 
issues that were addressed in IFMAT I are addressed in IFMAT 
II, and many of the same experts involved in IFMAT I 
participated in the development of the IFMAT II report.
    IFMAT II reviews efforts for the period 1991-2001 and 
recognizes many improvements in three of the four areas they 
originally identified as needing improvement. The gap between 
tribal visions for their forests and the management of those 
forests has shown marked improvement. This is evidenced by 
increased self-determination compacting among tribes and the 
use of integrated resource management plans. This has also been 
improved because of increased efforts of the BIA to coordinate 
with tribes.
    Second, increased funding in Indian forestry programs has 
been realized. While the report states that additional funding 
is necessary, the disparity between other Federal programs and 
Indian forestry programs has lessened. In 1991, Indian forestry 
programs were funded at less than one-third the amount per acre 
that other Federal forest management programs were funded. That 
amount has increased to more than two-thirds the amount per 
acre. In fact, Federal funding of Indian forestry programs has 
increased by 84 percent over the past 10 years, much of the 
increase due to recent efforts to maintain healthy forests.
    The report also recognizes the increase in coordinated or 
integrated resource planning efforts. This is shown by the 
advent of integrated resource management plans, or IRMPs. The 
Department has also recognized the importance of integrated 
planning and has requested and received increased funding for 
IRMPs in fiscal year 2004 appropriations. We have made similar 
requests for 2005.
    Finally, the report claimed that little progress has been 
made in the fourth area, the setting of trust standards and 
trust oversight. The Department disagrees with this assertion 
for two reasons. The Department has made significant 
improvements in trust oversight with the realignment of the 
Office of Special Trustee and the BIA and through our ongoing 
trust reform projects. As an example, the Office of American 
Indian Trust Functions have been transferred to the Office of 
Special Trustee, an independent third party, and their program 
has been expanded.
    Additionally, the report cites one specific model developed 
in 1993 as the model for trust reform. While this model is 
quite interesting and I think bears further discussion, it is 
not the only model for trust reform. The report contains a 
number of recommendations which are still under review by the 
Department. After an initial review, we believe a number of the 
recommendations have merit and will complement and enhance our 
commitment to healthy forests.
    I'd like to thank you for the opportunity to present our 
views, and I would be happy to answer any questions you may 
have.
    [Prepared statement of Ms. Martin appears in appendix.]
    Senator Smith. Ms. Martin, I understand that the Department 
of the Interior requested over $90 million for the Office of 
Special Trustee, and yet apparently, according to written 
testimony, it didn't fund and actively rejected a funding 
request for the second IFMAT. Is that accurate? And if so, why?
    Ms. Martin. I'm not exactly sure to which fiscal year you 
might be referring. That is possible, but I couldn't tell you 
off the top of my head.
    Senator Smith. It's also my understanding that the IFMAT II 
report expressed concern in the reduction of professional 
forestry staff since the last decade and the continuing 
shortage of personnel in critical skills areas such as forest 
engineering. I'm wondering what the Department of the 
Interior's plans are to remedy these problems.
    Ms. Martin. Well, the causes of the problem, itself, are 
complex. With increased self-determination programs, our staff 
levels decreased because those funds go out to the tribes to 
operate programs directly. That's one cause for the decrease in 
staff. What we have been doing at the Department to increase 
forestry professionals is we operate a program. It's a 
scholarship program which encourages students to seek forestry 
degrees, allows them to intern at the Department, and then pays 
for their education so that they can come work at the 
Department when they graduate. We are looking at increasing 
those types of programs for all of our trust programs in the 
future, and, in fact, our 2005 budget request seeks an increase 
in funds for those types of programs.
    Senator Smith. Very good. Thank you.
    Nolan Colegrove.

 STATEMENT OF NOLAN COLEGROVE, PRESIDENT, INTER-TRIBAL TIMBER 
                     COUNCIL, PORTLAND, OR

    Mr. Colegrove. Thank you, Mr. Chairman, members of the 
committee. I'm Nolan Colegrove, the president of the Inter-
Tribal Timber Council, and I'm also the forest manager in Hoopa 
in California. It is my pleasure to be here today to present to 
you the IFMAT II report on the second independent report of the 
status of Indian forests and their trust management. If I may, 
I will refer to these two reports as IFMAT I and IFMAT II.
    As the president of ITC, I will talk briefly about the ITC 
as an organization and its role with the IFMAT process. Dr. 
Gordon, the chairman of both the first and second independent 
IFMAT teams, will discuss the reports, themselves.
    Senator Smith. Okay.
    Mr. Colegrove. The ITC is an organization of over 70 
timber-owning tribes and Alaska native organizations that 
collectively represent more than 90 percent of the 18 million 
forest acres managed by the BIA. Our organization is 28 years 
old and came together out of a common interest and concern that 
the BIA forest management problems were not being addressed. 
However, rather than attack the BIA, the ITC chose to work with 
the Bureau and others to collectively make improvements. We 
believe that this approach has been instrumental in making the 
BIA's forestry programs one of the bright spots in 
accountability for trust administration in the Bureau today.
    In 1989 and 1990, the ITC actively participated in the 
development and passage of the National Indian Forest Resource 
Management Act, which became Public Law 101-630. At the ITC's 
suggestion, section 312 of that law requires that promptly 
after the enactment and every 10 years thereafter, the 
Secretary of the Interior shall provide for an independent 
assessment and report on the status of Indian trust forests and 
their management. The law also requires that the Secretary 
enter into a contract with a non-Federal entity to conduct this 
assessment, and sets forth eight specific tasks to be covered 
in every assessment. Copies of these periodic assessment 
reports are to be provided to Interior, to the tribes, and the 
Congress.
    Right after Public Law 101-630's enactment and with 
Congressional appropriation support, Interior contracted with 
the ITC for the first independent assessment report. The ITC 
selected a nationally preeminent team of forestry professionals 
led by Dr. Gordon. The ITC facilitated the team's efforts, but 
otherwise our charge was simple: Tell it straight, tell it like 
it is. We want to know the good, the bad, and the ugly.
    Over 2 years, they visited 33 tribes and numerous BIA and 
tribal forestry personnel. They issued the IFMAT I report in 
1993. IFMAT II and its report, which was issued in December 
2003 and is before you today, traveled a slightly different 
path. We were unable to secure Congressional funding, but with 
modest assistance from BIA forestry, ITC was able to assemble 
an IFMAT II team. To help gather IFMAT II data, the ITC and the 
IFMAT II team worked with the Pinchot Institute and two private 
foundations who were interested in canvassing Indian tribes for 
their readiness to participate in third party certification 
under the two leading systems, the Forest Stewardship Council 
and the Sustainable Forestry Initiative.
    While the teams collected considerable raw data, some 
members of the IFMAT II team, itself, visited 30 reservations, 
including many from IFMAT I for comparison purposes. We were 
fortunate. Six of the IFMAT I team members wanted to be 
involved in the second assessment, including Dr. Gordon as 
leader. Their familiarity with the IFMAT processes and Indian 
forest resource greatly streamlined the assessment and brought 
invaluable continuity of understanding. Dr. Gordon will discuss 
the IFMAT II assessment and report and its comparison with 
IFMAT I.
    I would like to comment about the role of the IFMAT reports 
in the current debate on the adequacy of Federal trust 
management. We believe these reports play a significant role in 
that debate for two reasons: First, the IFMAT reports are the 
only ones of their kind for any trust resource. To the best of 
our knowledge, there are no other evaluations or reports for 
Indian trust resources that are comprehensive, standardized, 
periodic, and, most important, independent. As for any trust, 
we believe this independent review is not just helpful for 
tribes, for the Administration, and for Congress; we believe it 
is essential.
    Second, IFMAT's independent observations and recommendation 
provide a fresh perspective on the trust debate.
    Mr. Chairman, IFMAT II notes that tribes have greatly 
increased their role in caring for our forests, and we believe 
that this has been the major factor in improved management and 
stewardship of our resources. We live with our forest every 
day, as will our children and theirs and all of our future 
generations. The IFMAT process makes an invaluable contribution 
by providing periodic independent check on progress and 
problems in management of our trust forest resources.
    We are pleased that the IFMAT II report has been completed 
and is now being presented to Congress and the tribes and the 
Administration. We look forward to the discussion it will 
engender.
    Thank you.
    [Prepared statement of Mr. Colegrove appears in appendix.]
    Senator Smith. Mr. Colegrove, on the issue of trust 
oversight, you seem to have some disagreements with BIA, and I 
wonder if you can speak just a little more as to how you 
propose to resolve those.
    Mr. Colegrove. I'm sure that every tribe in the Nation 
would have a hard time making an agreement on most things, and 
we saw that over the course of the last 2 years with the trust 
reform efforts that were put on by the Administration, and 
working along with the tribes. There are several ideas out 
there. Some of them have been agreed to. Some of them there has 
been a lot of agreement, others there haven't been. In this 
case, the oversight has not been looked on very favorably by 
the Administration.
    Senator Smith. Do you have concerns about the staffing 
shortfalls in Indian forests? And how do you propose to remedy 
those?
    Mr. Colegrove. Certainly. And as our testimony said, 
working cooperatively with the Bureau is one of the best ways 
that we see to be able to resolve that. Of course, a lot of 
money helps resolve a lot of issues. Some of it is funding, 
some of it is not funding. Some of it is the increased funding 
with the wild land/urban interface, hazardous fuels, fire. New 
money in the Bureau and the rest of Interior has taken a lot of 
the BIA foresters and a lot of the tribal foresters out of the 
system, as well as what Ms. Martin had alluded to earlier of 
tribes compacting programs and assuming a lot of those 
functions and the BIA staff going down. There has also been 
foresters leaving the profession going to work as fire fighters 
or fuels technicians.
    The way that we are addressing it is there are several 
ways. Ms. Martin mentioned one of the most important ways that 
we're looking at, and that's in terms of educating new 
foresters. Other ways is bringing other folks in and just 
trying to entice people to come to work for the Bureau. It's a 
pretty hard thing to do, given other packages that private 
industry has, but there are a numbers of ways that we are 
trying to address that.
    Senator Smith. Thank you very much.
    Dr. Gordon.

    STATEMENT OF JOHN GORDON, INTERFOREST, LLC, BRANFORD, CT

    Mr. Gordon. Mr. Chairman, members of the committee, I'm 
John Gordon, chairman of the second Indian Forest Management 
Assessment Team, or IFMAT II. I'm also chairman and partner of 
Interforest, a forestry consulting firm, and Pinchot professor 
of forestry and environmental studies emeritus at Yale 
University. It is my pleasure to testify on an assessment of 
Indian forests and forest management in the United States done 
by the second Indian forest management team.
    President Colegrove has done an excellent job of describing 
the fundamentals of Indian forestry, the Inter-Tribal Timber 
Council, and the National Indian Forest Resource Management 
Act, so I will confine my remarks to a brief summary of the 
major findings and recommendations of the IFMAT II report and 
compare it with IFMAT I in five major areas: First of all, the 
four gaps described in the first assessment and alluded to by 
Ms. Martin; second, funding; third, forest health issues; 
fourth, staffing of BIA and tribal forestry organizations; and, 
fifth, trust oversight on Indian forests.
    I'm happy to report that on the whole the management of 
Indian forests is different and better than it was 10 years 
ago, largely through the efforts of dedicated tribal and BIA 
resource managers and staff. There has been a significant 
amount of progress toward sustainability in Indian forests 
since IFMAT I, although significant progress remains to be 
made.
    Indian forests have retained and enhanced their value, 
noted in IFMAT I, as areas upon which sustainable forestry to 
meet human needs can be demonstrated. Because tribal members 
live intimately with all the results of their forestry 
activities, they pay close attention to the health of their 
forests and the effects of forest management activities on 
themselves and on their environment. This makes Indian forests 
of special value to all Americans.
    IFMAT I identified four gaps: First, the gap between the 
Indians' vision of their forest and how it is actually managed; 
second, a gap between Indian forest funding and comparable 
Federal and private forest funding; third, deficiencies in 
coordinated resource planning and management; and, fourth, the 
need for better trust standards and oversight in Indian 
forestry. Major progress is evident in three of them.
    The first gap between the visions Indians express for their 
forests and the way they are managed is narrowing. This is due 
to greater tribal participation in forest management and 
greater alignment between tribal and BIA approaches to 
management. The trend toward greater tribal participation and 
management needs to be encouraged and strengthened, in our 
view.
    The second gap in funding between Indian and other 
comparable lands, particular Federal land, is narrowing due to 
increased funding to address fire issues in Indian forests and 
a redirection of emphasis on Federal forests. However, a 
substantial funding gap still exists, and fire funds we think 
need to be made recurring and need to be integrated with other 
funds to achieve greater efficiency in their use.
    The third gap in integrated management planning has 
improved markedly, but inadequate resources are available for 
the mandated preparation of integrated resource management 
plans, the larger context for forest management planning. Even 
now, only 40 percent of the tribes have up-to-date forest 
management plans.
    The fourth gap in trust oversight has, in our view, seen 
the least progress on the ground. The BIA is still in the 
untenable position of pitching and umpiring--that is, providing 
management services and advice and overseeing the adequacy of 
those services and advice. IFMAT II strongly believes that the 
recommendation of IFMAT I for independent oversight of forest 
trust responsibility needs to be implemented on the ground.
    Now, innovative management of Indian forests under the 
principles of adaptive ecosystem management is happening on 
many reservations, and the quality and quantity of tribal 
forest management staff are increasing. Indian forests remain a 
vital part of tribal life on reservations in every part of the 
contiguous United States and Alaska. Timber production, non-
timber forest products, grazing, and wildlife management 
provide revenues and jobs for tribal members and enhance 
economic life of surrounding communities. Subsistence 
lifestyles and forest-derived foods and medicines are important 
to many tribal members. Indian forests often play a role in 
religious observance and artistic expression. Forest protection 
and use remain core values on forested reservations.
    A number of tribes are increasing their holdings modestly 
through fee purchase of forests, and others are increasing 
their holdings by reclaiming or attempting to reclaim lost 
tribal lands.
    IFMAT II believes that if the actions described in our 
report are taken, this generally positive picture will be 
maintained and improved at an acceptable rate.
    Let me say something more about funding. IFMAT I identified 
a large gap between funding provided by the Federal Government 
for national forests, forests held in trust for all Americans, 
and Federal Government funding provided for Indian trust 
forests. In 1991, Indian forestry, including fire funds, 
received only about one-third the amount per acre as was 
invested in the national forests. In 2001, Indian forestry 
received about two-thirds of the amount per acre as was 
invested in the national forests, or $0.68 on the dollar.
    This gap has narrowed for two reasons. First, a large 
reduction in Federal funding for forest management on national 
forests; and, second, a significant increase in funding for 
fuels management, fire preparedness, and emergency 
stabilization activities on Indian forests.
    Funding for fire management has increased sharply over the 
last ten years in recognition of the fuel buildup on Indian and 
other forests due to past management practices and forest 
health needs. Restrictions on the use of fuels management funds 
often limit the ability to integrate them with other needed 
silvicultural treatments into a comprehensive program of forest 
management that includes wild land fire hazard and risk 
abatement. Protecting forest health will be an ongoing task 
that is most efficiently addressed through integrated 
management; thus, we recommend making fire funding a permanent 
part of the funding base for Indian forestry, and at the same 
time removing barriers that reduce tribes' ability to integrate 
fire funding into the total forest and natural resource 
management program. We further recommend that Federal forestry 
allocations be raised to a total of $181 million annually.
    Forest health--there has been an overall improvement in 
silvicultural practices and management of forest health 
issues--fire, insects, and disease--on Indian forests in the 
decade since IFMAT I. This is resulting in integrated 
silvicultural prescriptions and improved integrated management 
on the ground.
    Indian forest managers have made significant strides in 
addressing wildfire risks during the last decade; however, 
acreage treated for hazardous fuels reduction remains lower 
than needed. In an important related area, good progress has 
been made on some Indian forests in road location, 
construction, and maintenance, but, despite improvement, there 
is considerable risk that efforts to combat forest health 
problems and to institute sustainable management for all forest 
resources will be overwhelmed by a combination of funding 
shortfalls, personnel shortages, and ecosystem-based problems--
the aforementioned insects, disease, and fire.
    Immediate and focused attention is needed to improve the 
rate of forest health treatment response, utilize small and 
low-quality logs, and strength staffing. Some actions can be 
taken without additional funds. For example, funding for fire 
and other forestry activities could be better integrated to 
reduce administrative costs and improve the efficiency and 
effectiveness of silvicultural treatments to accomplish 
management objectives. But some require substantial and 
immediate investment.
    If better forest health is to be achieved and the promise 
of Indian forestry described in IFMAT I is to continue to be 
realized, increases in investment, reduced burden from unfunded 
mandates, and immediate action are needed, so we recommend that 
aggressive treatment of Indian lands for forest health 
maintenance and improvement be a major use of the recommended 
increase in funding.
    With regard to staffing, the number of tribes that compact 
or contract to provide forestry services and functions on their 
own reservations has nearly doubled since 1991. That's good. 
But despite this, Indian forestry programs, BIA and tribal 
together, exclusive of fire programs, have declined 26 percent 
in staffing. Overall staffing for Indian programs--that is, 
including fire--has increased slightly from 1991 levels, and 
the percentage of workers with professional qualifications has 
increased. More tribes now employ specialists in wildlife 
biology, hydrology, and landscape analysis. At the same time, 
BIA technical assistance staffing has significantly declined 
over the last decade. Tribes receive less assistance from BIA 
in forest inventory, management planning, marketing, and 
economics. Key personnel are retiring or getting ready to 
retire. Fire funding caused personnel shifts from forestry to 
fire that have not been entirely made up on the forestry side, 
and the supply of new Indian professionals is insufficient to 
meet demand. So we recommend that additional education and 
training for tribal members in key specialties be given 
additional support, and that BIA technical assistance levels be 
brought back at least to the 1991 levels.
    With regard to trust oversight, we believe that the 
triangulation model for trust oversight suggested in IFMAT I 
remains an appropriate conceptual model for trust oversight. 
Its virtues are: First, it separates the BIA's role as manager 
and provider of technical information from its role of arbiter 
of how effective the management and information is; second, it 
places tribal goals even more firmly as the driving force of 
management plans and actions; and, third, it allows appropriate 
differentiation of tribal goals and activities among the many 
and diverse tribes that manage forests.
    Under this system, tribes would create management plans 
based on tribal goals with the support, if needed, of BIA 
technical specialists. These plans would then be negotiated 
with the Secretary of the Interior, and when in place would be 
the basis for evaluation of trust oversight performance. Both 
BIA and tribal performance in pursuit of the goals would be 
monitored by a commission independent of the Secretary and the 
BIA in a manner consistent with tribal sovereignty and Federal 
law.
    Responsibility for delivering a natural resource management 
program would be placed under a single manager for each tribe 
or tribal forest. In the complex setting of current forest 
management, actions taken today have long-term effects on many 
resource. Thus, we believe the trustee must first require that 
specific information from each tribe, integrated resource plans 
and cumulative effects analysis be developed; second, assure 
that the beneficiary tribe clearly understands the possible 
consequences of forest management activities as tribal goals 
are pursued; and, third, to have a truly independent mechanism 
for assessment. Thus, we recommend that a management oversight 
structure be put in place to ensure effective and independent 
oversight of plans that reflect the visions of individual 
tribes for sustaining their forests.
    In conclusion, our report provides many other findings and 
recommendations, all derived from careful conversations with 
tribal members, BIA and tribal foresters and resource managers, 
and on-the-ground observation, data collection, and analysis. 
We hope you will give them all careful attention and thought; 
however, I must stress again, as President Colegrove did, that 
IFMAT reports, themselves, do not present mandates. Ours is 
simply another view of this vital part of the forest resources 
of America and the world.
    We do think the process of recurring independent 
assessments has great merit and utility and should be 
regularized and continued. Indeed, we would like to see this 
process more broadly applied in natural resource management and 
forestry.
    Indian forests present a unique window into the interaction 
of forests and people--in this instance, people who care deeply 
about the land and nature and live intimately with both. In 
this sense, as well as in the sense of forming a major part of 
the diminished heritage of important and vital people, there 
are major asset obligation and opportunity for us all.
    Mr. Chairman, that concludes my remarks. I would be pleased 
to respond to any questions.
    Senator Smith. Thank you, Dr. Gordon.
    [Prepared statement of Mr. Gordon appears in appendix.]
    Senator Smith. I note that you participated in the first 
IFMAT report, and in that you recommended the triangulated 
trust oversight model. You've spoken to that this morning. And 
yet what has developed is a different model between BIA and the 
Office of Special Trustee. I wonder if you can elaborate a 
little bit more. Is that sufficient? Will that work? Or do you 
think that should go to the triangulated trust model?
    Mr. Gordon. Mr. Chairman, we strongly support the 
triangulated model. Our on-the-ground assessment mostly ended 
in 2001, with a little bit of 2002, and it is those 
observations that we report on, and we did not see any change 
in trust oversight on the ground in that time. If there has 
been significant progress since that time, we're very pleased 
to hear about it, but I do not know the details of what has 
transpired.
    Senator Smith. You have extensive exposure to Indian forest 
lands, and you have suggested that because of the ethic of the 
American Indian peoples for the environment, for their land, 
that they are unusually good stewards of the forest. Can you 
compare their forests with those managed by the Federal 
Government, for example, or on other private lands? What is 
your observation?
    Mr. Gordon. Well, I think Indian forestry has two big 
advantages with respect to any other forest management. We've 
talked about some of the disadvantages--under-funding and 
under-staffing--but the two big advantages are that they live 
with the consequences of all their decisions.
    Senator Smith. Because they're there.
    Mr. Gordon. If they decide not to cut timber, they get to 
not have the money.
    Senator Smith. Yes.
    Mr. Gordon. If they decide to burn, they get to cope with 
the smoke. So I think that leads to a balanced view of forest 
management, and I think that's a very good thing.
    The second thing is that tribes are diverse, so many 
different tribes try many different things in forestry, so 
instead of a fairly rigid template of management, you have a 
diverse set of ideas, and this leads to innovation and to a 
form of adaptive management, where you can compare different 
kinds of management on similar forests. So to me those are the 
two major advantages, in addition, of course, to what you 
mentioned, innate feeling for the land.
    Senator Smith. And because of those forces that you talk 
about, are the Indian forest lands in better condition than 
those that you find otherwise in private hands or Federal 
hands?
    Mr. Gordon. Well, I can't respond directly to that because 
we didn't review private and other Federal lands with regard to 
quality of management. What I can say is that in many cases you 
can see very innovative management on Indian forests and cross 
the boundary to neighbors and see management that isn't as 
innovative.
    Senator Smith. You have provided written testimony in 
support of S. 868. That's the subject of the next hearing. It's 
a bill that I've introduced to restore ancestral homelands to 
the Confederate Tribes of the Coos, Lower Umpqua, and Siuslaw 
Indians. Can you tell the committee why you are supporting this 
bill and what transferred management of these lands would do, 
in your view?
    Mr. Gordon. Well, there are two reasons why I strongly 
support the bill. The first is that the plan that has been 
prepared has been prepared with the best expertise and it is 
very appropriate to the ecosystem to which it would be applied. 
I think in every respect it respects all the ecological and 
environmental covenants that now cover the land and would open 
the way for innovative management of the kind I commented on in 
my last answer. The second reason is again related to what I 
said before. It would create yet another tribal entity managing 
forest and yet another opportunity for innovative and 
environmentally sensitive management.
    Senator Smith. Are you familiar with the land in question? 
Have you been there?
    Mr. Gordon. I spent 7 years in Oregon at Oregon State 
University in the 1970's and early 1980's and I was in that 
country quite a few times at that time on the Siuslaw and on--
--
    Senator Smith. Are you aware that this land in question had 
been harvested years ago and is now managed under late 
successional reserve and trying to bring back spotted owls and 
other endangered species?
    Mr. Gordon. Yes; I'm aware of that.
    Senator Smith. Do you have any familiarity with the 
condition of that land now and its ability to help endangered 
species? Is it in good condition or is it grossly overgrown?
    Mr. Gordon. I can't comment directly on that because I have 
not been there to gather data for years, but my impression is 
that the potential of that land remains great, both in terms of 
timber production and environmental protection, and is some of 
the best forest land in the world.
    Senator Smith. Thank you very much, Dr. Gordon and all of 
our witnesses. We appreciate your report. With that we will 
conclude this first hearing. We'll take a 5-minute break and 
then we'll reconvene.
    [Whereupon, at 9:44 a.m. the subcommittee considered other 
matters.]

=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


 Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator from 
            Colorado, Chairman, Committee on Indian Affairs

    Thank you, Senator Smith. I appreciate your willingness to chair 
this hearing, and your long-standing commitment to Indian issues and 
the specific issue of tribal forestry. This is an important issue for 
the Oregon tribes but it is also an important issue for tribes 
throughout the West.
    Of the 51 million acres of land held in trust for Indian tribes, 
almost 18 million acres are forest lands which are a principal source 
of jobs and governmental revenues for many tribes.
    Keeping tribal forests healthy is crucial because tribal trust land 
is limited and difficult to increase or adjust--the loss of trust 
forests, particularly through wildfire, would be irreplaceable in the 
near term, and could devastate a tribe's economy. As trustee, the 
United States has a trust obligation to protect these valuable tribal 
forest assets.
    I have reviewed the most recent Indian Forest Management Assessment 
Team Report [IFMAT II], and would like to welcome Nolan Colegrove, 
president of the Intertribal Timber Council, and John Gordon, also of 
the Intertribal Timber Council. I and my staff have worked with ITC for 
several years, and our experience has been a good one. The ITC is a 
professional and valuable organization that provides expertise and 
insight to the Congress as well as to Indian country.
    The periodic IFMAT reports are an important tool for assessing the 
relative health of tribal forests. I was quite gratified to read in 
this latest report how much tribal forests have improved since the 
publication of IFMAT I, 10 years ago. This improvement is due in large 
measure to the dedicated efforts of Bureau of Indian Affairs and tribal 
forest professionals, but is also due to the guidance of provided by 
IFMAT I.
    We cannot become complacent about the progress we've achieved in 
the past decade. Although tribal forest health has greatly improved, 
there are still areas of concern, and we will hear much more about 
those concerns from our witnesses.
    There is one specific tribal forestry issue I would like to address 
today. Many tribal forests border on or are adjacent to National 
Forests or Bureau of Land Management lands that pose wildfire, insect, 
or disease threats to tribal trust timber assets. In recent years, 
these potential threats from Federal public forest lands have 
significantly increased, so that the active management of tribal 
forests alone does not provide sufficient protection.
    Many tribes are very concerned about the protection of their trust 
timber asset, and are frustrated by the Federal public forest land 
management agencies' inability to provide timely and appropriate 
responses.
    Last session I attempted to amend the Healthy Forests bill to 
address this situation by providing willing and able tribes a proactive 
opportunity to perform needed management activities on adjoining or 
adjacent Federal public forests, to help the United States fulfill its 
trust obligation to protect tribal trust forest assets.
    The amendment authorized the respective Secretaries of Agriculture 
and Interior to adopt tribal proposals for tribal forest asset 
protection activities on National Forest and BLM lands in proximity to 
tribal trust forest lands if the applicant tribe met the following 
criteria:
    No. 1. The tribal forest had significant exposure to National 
Forest or BLM land.
    No. 2. The tribal forest was a significant percentage of the 
tribe's trust assets.
    No. 3. The National Forest or BLM land posed a fire, disease, or 
other threat to the tribe's forest or a tribal community.
    No. 4. The tribe's project would not displace an existing forest 
management 
contractor.
    No. 5. The tribe had the capability to meet the goals of its 
proposal.
    No. 6. The proposal's Federal land, or the tribe's relationship to 
that land, involved unique circumstances, such as treaty rights or 
biological, historical, or cultural issues.
    The amendment was supported by numerous Indian tribes and the ITC, 
but unfortunately we were unsuccessful in getting the amendment 
adopted.
    In this session of Congress, this idea has been taken up again in 
stand-alone companion bills introduced by Senator Feinstein and 
Chairman Pombo on the House side. Senator Smith, Senator Domenici, Vice 
Chairman Inouye and I are all cosponsors of Senator Feinstein's bill, 
and we all recognize the importance of passing these bills and 
addressing this issue before more tribal forest land and more lives are 
lost to devastating wildfires.
    I look forward to hearing the testimony from today's witnesses.
                                 ______
                                 

 Prepared Statement of Nolan C. Colegrove, Sr., President, Intertribal 
                             Timber Council

    Mr. Chairman, members of the committee, I am Nolan C. Colegrove, 
Sr., Hoopa Forest Manager and President of the Intertribal Timber 
Council [ITC]. It is my pleasure to be here today to testify on behalf 
of the ITC on An Assessment of Indian Forests and Forest Management in 
the United States by the Second Indian Forest Management Assessment 
Team, issued December 2003. More informally, this document is referred 
to as the IFMAT-II report. IFMAT-II is the second independent 
evaluation of the status of Indian forests and forestry as required by 
the National Indian Forest Resources Management Act (Public Law 101-
630). The first assessment was completed in 1993.
    My comments today are intended to provide the historical context 
for the IFMAT report and to emphasize the importance of periodic, 
independent assessments of the management of assets held in trust by 
the United States for the benefit of Indians. The actual findings and 
recommendations contained in the IFMAT-II report will be described in 
the testimony of the chairman of IFMAT-II, Dr. John Gordon.
    The ITC is a 28-year old organization of 70 forest owning tribes 
and Alaska Native organizations that collectively represent more than 
90 percent of the 7.6 million timberland acres and a significant 
portion of the 9.5 million woodland acres that are under BIA trust 
management. These lands provide vitally important habitat, cultural and 
spiritual sites, recreation and subsistence uses, and through 
commercial operations, income for our tribes and jobs for our members. 
Last year, 635 million board feet were harvested from Indian 
timberlands, with a stumpage value of $62 million. To all our 
membership, our forests and woodlands are essential to our physical, 
cultural, spiritual, and economic well-being; their proper management 
is our foremost concern.
    The principal means by which the ITC has sought to review, 
coordinate and revise Bureau and tribal forestry activities has been 
the ITCs annual timber symposium. For nearly 30 years, this has been a 
forum where tribes, the BIA, and outside forestry experts gather to 
discuss tribal and BIA forestry issues and forest management trends and 
developments, and to fashion findings and recommendations for 
cooperatively revising and improving the management of trust forest 
resources. Each symposium is held in a different part of the United 
States on or near a forested tribe's reservation.
    Our first symposium was convened in Seattle in the late 1970's by a 
group of tribes which had become increasingly alarmed that significant 
deficiencies in Indian forest management were not being corrected. At 
that gathering, Indian tribes discovered that they shared common 
problems and decided to work together to try to resolve them. The ITC 
was formed shortly thereafter. Rather than attacking the BIA, the 
founders of the ITC took a path dedicated to working cooperatively with 
the BIA, private industry, and academia to improve the management of 
Indian forests. That philosophy continues to guide the ITC to this day. 
Over the years, the ITC and its partners have worked together to make 
the Forestry program one of the best in the BIA, despite the program's 
limited resources. More recently, the ITC has been working with the 
U.S. Forest Service to improve relations there, and has also 
established relations with the National Association of State Foresters. 
In legislative activity, the ITC significantly participated in the 1990 
enactment of the National Indian Forest Resources Management Act, has 
sought to improve appropriations, and helped include a tribal watershed 
forestry program in the Healthy Forests Restoration Act of 2003.
    An 11-member, elected Board of Directors of tribal leaders from 
throughout the United States oversees the ITC's activities, meeting 
four or more times a year either at the ITC headquarters office in 
Portland, Oregon, or at Indian forestry-related locations around the 
United States. The ITC staff is small (two full time personnel and one 
BIA Forester on an IPA), but the ITC has relied upon contributions of 
staff from member tribes to work on issues of regional and national 
significance. The ITC has been an active force in advancing initiatives 
to improve the management of Indian forests and other resources held in 
trust for the benefit of Indians. In addition to the symposium, the ITC 
has a strong scholarship and education program, issues newsletters and 
updates, participates in national wildland fire activities, monitors 
and pursues legislation, is engaged in the forest ``green'' 
certification issue, and is an active contributor to the Indian trust 
reform debate.
    During the development and consideration of the National Indian 
Forest Resources Management Act (NIFRMA, 25 U.S.C. 3101), the ITC 
proposed that the bill include a periodic independent assessment of 
Indian trust forests. Working with the bill's sponsors, a requirement 
for independent assessments at decadal intervals was incorporated in 
section 312 (a)(1). This legislative mandate provides that ``the 
Secretary, in consultation with affected Indian tribes, shall enter 
into a contract with a non-Federal entity knowledgeable in forest 
management practices on Federal and private lands to conduct an 
independent assessment of Indian forest lands and Indian forest 
management practices.'' Subsection (a)(2) then sets forth a list of 
eight specific questions to be addressed in each assessment, including 
reviews of the funding, staffing, management, and health of Indian 
forests. With bipartisan support, NIFRMA cleared both Chambers of 
Congress as title III of H.R. 3703, a compilation of diverse Native 
American legislation, and was signed into law November 28, 1990, 
becoming Public Law 101-630.
    Following the enactment of NIFRMA, the ITC sought and received 
funding from Congressional Appropriations Committees to complete IFMAT-
I. Congress provided $300,000 in fiscal year 1992 and another $300,000 
in fiscal year 1993. The balance of funding for the first assessment 
was provided by a grant from the Administration for Native Americans. 
The Interior Department selected the ITC to coordinate the assessment, 
and ITC sought and obtained the services of a panel of nationally pre-
eminent experts in forestry, including Dr. John Gordon of Yale to lead 
the assessment team. Once the team was formed, the ITC helped 
facilitate access to timber tribes and Federal personnel, but otherwise 
left the team alone to independently conduct its evaluation. ITC's 
charge to IFMAT was simple ``Tell it straight. Tell it like it is. We 
want to know the good, the bad, and the ugly.'' The first IFMAT visited 
33 timber tribes and interviewed many Federal and tribal personnel over 
the course of 2 years. IFMAT-I (a copy submitted with this testimony) 
was issued in November 1993. As part of IFMAT's research, every 
forested tribe visited received its own confidential report on the 
team's assessment of that tribe's forest.
    IFMAT-I generally found a wide variety of management approaches in 
Indian forests, that sustainability is a key factor, but that 
underfunding and understaffing hamper management, and that Indian 
forests had mixed health and productivity, varying by forest type and 
geographic location. Four specific gaps were identified: (1) a gap 
between the Indians' vision of their forest and how it is managed, (2) 
a gap in funding between Indian forests and comparable Federal and 
private forests, (3) a lack of coordinated resource planning and 
management, and (4) the need for better trust standards and oversight 
in Indian forestry. The report's principal recommendation was that the 
trust relationship between the tribes and the United States be 
reconfigured by (1) significantly increasing BIA Forestry funding so 
that it was on a par with funding provided for Federal forests, and 
somewhat controversially, (2) establishing a separate and independent 
entity, apart from the Interior Department, to monitor and evaluate the 
sufficiency of BIA trust forest management. The ITC distributed the 
report to the tribes, the Interior Department, and the Congress, 
accompanied by briefings.
    The consequences of the first IFMAT report have been interesting 
and informative. The findings and recommendations in IFMAT-I, combined 
with those contained in the reports provided to individual tribes, 
provided roadmaps for improving forest management on individual 
reservations which tribes could pursue on their own volition. 
Nationally, the report found that, despite significant challenges and 
funding levels only a third of those provided for the management of 
federal forest lands, Indian forest lands have a striking potential to 
serve as models of sustainability. This was both gratifying and 
heartening, but IFMAT-I warned that certain steps must be taken if this 
promise was to become reality.
    IFMAT-I has continued to contribute to the trust management of 
Indian forests and has established a benchmark against which change can 
be measured with a consistent set of criteria. When the Healthy Forests 
Initiative was getting underway early in this Administration, BIA 
Forestry program managers referred extensively to the report in policy 
discussions with senior Departmental personnel, who themselves took a 
keen interest in it. It is our understanding that Secretary Norton 
herself extensively reviewed the report. The report also contributed to 
the Interior Department's better understanding of the trust Forestry 
program's funding inadequacies, so that over the last 3 years, the base 
funding level for the BIA Forestry program has increased.
    And in the intensive national debate on Indian trust reform over 
the past several years, IFMAT-I's recommendation that an independent 
entity be established to evaluate trust management helped spark the 
presentation and discussion of that idea as an important component of 
trust reform.
    In 2000, with the approach of the due date for the second IFMAT 
assessment, BIA Forestry program managers sought to have funding 
incorporated into the Department's budget request. Disappointingly, the 
request was not included in the Administration's proposed fiscal year 
2002 budget. The ITC's requests to Congress to provide funding for the 
assessment and report were also unsuccessful. But because tribes were 
convinced of the importance of a periodic, independent assessment of 
the status of Indian forests and forestry, ITC sought other ways to 
complete the study. A modest amount of funding was made available from 
the BIA forestry program. Ultimately, the Pinchot institute, with 
funding provided by the Ford and Surdna Foundations, worked with ITC to 
craft an approach that combined the IFMAT assessment with an evaluation 
of the readiness of Indian tribes to partake in the two leading third 
party forest certification systems, those sponsored by the Sustainable 
Forestry Initiative and the Forest Stewardship Council. With limited 
but critical BIA support, ITC assembled the second IFMAT team. In the 
second assessment, 30 reservations were included, many of which were 
involved in IFMAT-I to provide information to indicate the degree of 
change over the last 10 years. Compared to the first assessment, 
personal site inspections by IFMAT members were reduced and most of the 
data was provided by the forest certification inspection teams instead 
of first-hand observation.
    The ITC is pleased that six of the IFMAT-I members and the IFMAT-I 
project manager were enthusiastic about participating in IFMAT-II. Dr. 
Gordon again led the team. Their background experience in IFMAT-I 
greatly streamlined the processes for IFMAT-II and permitted a credible 
assessment despite the much more limited budget. More importantly, 
consistency in membership has provided truly invaluable continuity of 
experience and expertise from IFMAT-I to IFMAT-II, bringing their 
intimate first-hand familiarity with both IFMAT's analytical processes 
and the national trust Indian forest resource to the second IFMAT 
assessment and report.
    The ITC is also grateful to the Pinchot Institute, supporting 
foundations, and the SFI and the FSC for their contributions to the 
process. They worked cooperatively with the IFMAT-II team on the 
selection and gathering of pertinent data. As with IFMAT-I, the tribal 
governments of the thirty reservations visited were provided with 
individual confidential reports pertaining to prospects for forest 
certification and IFMAT-II's findings and recommendations.
    Today's testimony by Dr. Gordon discusses the IFMAT-II assessment 
and report, and its comparison with IFMAT-I. But before I close, I 
would like to offer a few comments on the role of the IFMAT assessments 
and reports in the context of the Federal Government's trust 
responsibility.
    As you are aware, for the past several years, the U.S. courts, the 
Federal Government and the Indian tribes have been intensively 
reviewing and debating the adequacy of the Federal Government's meeting 
its trust responsibility to Indian people and Indian tribes. Both the 
first and the second IFMAT reports play, we believe, a very significant 
role in that debate, because these reports are the only ones of their 
kind for any Indian trust resource. To the best of our knowledge, there 
are no other evaluations and reports on an Indian trust resource that 
are comprehensive, standardized, periodic, and most important--
independent. At a time when the trust debate can become heated and 
skewed, the IFMAT reports provide a professional, analytical approach 
that can be measured against a similarly based report from 10 years 
earlier.
    The independence of the reports' observations and recommendations 
also provide a fresh perspective on the trust debate, and can serve as 
a source of new insights and ideas. We note that some of the 
recommendations of the independent team may, or may not, be favorably 
received. Such has been the case for a principal recommendation of both 
IFMAT-I and IFMAT-II: That management plans developed and approved by 
the Secretary of the Interior define standards for management 
performance and that an independent entity be established to provide 
regular monitoring and oversight of the programmatic trust management 
activities provided by the Interior Department. Ten years ago, when 
that idea was first broached as a recommendation in IFMAT-I, the team 
acknowledged it was controversial. Tribes did not immediately embrace 
it. But in the interceding 10 years, the landscape has changed. Today, 
more tribes contract or compact more BIA trust programs. The long 
history of Interior's trust inadequacy has been bared under the 
scrutiny of Federal courts, and the Interior Department has been 
launched on a broad effort to reorganize and even reform its trust 
capabilities. Under these new circumstances, the idea of independent 
trust oversight has been favorably received by some tribes and tribal 
organizations. Recently, the concepts of reliance upon management plans 
and providing oversight separate from program operational 
responsibilities have been embraced in proposals for ``To Be'' process 
re-engineering currently underway by the Office of the Special Trustee. 
There are some significant differences from IFMAT-I's recommendation, 
however. Oversight and operational responsibilities are not proposed to 
be entirely separated and the concept of an independent entity 
providing oversight has not been embraced by the Department of the 
Interior. Nonetheless, the recommendations of IFMAT-I have contributed 
constructively to the debate.
    The IFMAT reports themselves do not present mandates. Rather, they 
provide a professional and independent assessment and report, along 
with recommendations to improve the management of trust resources that 
are vital to the welfare of tribal communities. This independent 
evaluation is equally available to the tribes and tribal organizations, 
to the Interior Department and other Federal administrative agencies, 
and to the Congress. In the conduct of any trust, the availability of 
such an evaluation and report is, in our belief, not just helpful, but 
essential. We are pleased with the presentation of IFMAT-II to the 
Congress, the tribes, and the Administration, and we look forward to 
the discussion we hope it engenders.
    Until the mid-1970's when the Federal policy of self-determination 
was adopted, we relied principally on the BIA to manage our forests. 
Our traditions, customs and practices were ignored in favor of non-
Indian precepts of scientific ``management''. Today, we are witnessing 
the terrible price our lands and resources have paid. The. character of 
our forests have changed drastically. Imminent threats of devastating 
loss from insects, disease, and wildfire are posed from both within and 
outside our reservation boundaries. Although our forests still suffer 
from underfunding of management and forest health problems, in many 
respects their condition is improving. Since IFMAT-I the tribal 
presence in forest management has increased dramatically. We believe 
that progress toward improved management practices on Indian forests is 
a direct result of the increased credence, acceptance, and prominence 
of tribal views and philosophies of stewardship in the care of Indian 
resources.
    In Indian country, we view forest management from a unique 
perspective. We live with the consequences of management decisions 
every day because our forests are a part of our homelands. For 
thousands of years, we have cared for our forests, fish, and wildlife 
to provide for our communities. Because our forests affect our 
sustenance, livelihoods, recreation, and spiritual expression, our 
decisions and actions are driven by a profound sense of duty, a 
covenant, if you will, with the generations to follow, to manage our 
forests wisely for the needs of tomorrow as well as those of today.
    Mr. Chairman, that concludes my remarks. I would be pleased to 
respond to any questions you may have.
                                 ______
                                 

   Prepared Statement of John C. Gordon, Chairman, The Second Indian 
                   Forest Management Assessment Team

    Mr. Chairman, Members of the Committee, I am John C. Gordon, 
Chairman of the Second Indian Forest Management Assessment Team (IFMAT 
II). I am also Chairman and a Partner of Interforest, LLC, a forestry 
consulting firm, and Pinchot Professor of Forestry and Environmental 
Studies Emeritus at Yale University. It is my pleasure to be here today 
to testify on An Assessment of Indian Forests and Forest Management in 
the United States by the Second Indian Forest Management Assessment 
Team, issued December 2003.
    President Colegrove has done an excellent job of describing the 
fundamentals of Indian forestry, the Intertribal Timber Council (ITC), 
and the National Indian Forest Resource Management Act (NIFRMA). I will 
confine my remarks to a brief summary of the major findings and 
recommendations of the IFMAT II report in five major areas: (1) the 
four gaps described in the first assessment (IFMAT I); and specific 
recommendations regarding (2) funding; (3) forest health issues; (4) 
staffing of BIA and tribal organizations; and (5) trust oversight on 
Indian forests.
    I am happy to report that on the whole, the management of Indian 
forests is different and better than it was 10 years ago, largely 
through the efforts of dedicated tribal and BIA resource managers and 
staff. There has been significant progress toward sustainability in 
Indian forests since IFMAT I, although significant progress remains to 
be made. Indian forests have retained and enhanced their value (noted 
in IFMAT I) as areas upon which sustainable forestry to meet human 
needs can be demonstrated. Because tribal members live intimately with 
all the results of their forestry activities they pay close attention 
to the health of their forests and the effects of forest management 
activities on themselves and their environment. This makes Indian 
forests of special value to all Americans.

IFMAT I Gaps

    IFMAT I identified four major gaps: First, a gap between the 
Indians' vision of their forest and how it is managed; second, a gap in 
funding between Indian forests and comparable Federal and private 
forests; third, deficiencies in coordinated resource planning and 
management; and fourth, the need for better trust standards and 
oversight in Indian forestry. Major progress is evident in three of 
them.
    The first gap, between the visions Indians express for their 
forests and the way they are managed is narrowing. This is due to 
greater tribal participation in forest management and greater alignment 
between tribal and BIA approaches to management. This trend toward 
greater tribal participation in management needs to be encouraged and 
strengthened.
    The second gap, in funding between Indian and other comparable 
lands, particularly Federal land, is narrowing due to increased funding 
to address fire issues in Indian forests, and a redirection of emphasis 
on Federal forests. However, a substantial funding gap still exists, 
and fire funds need to be made recurring and need to be integrated with 
other funds to achieve greater efficiency in their use.
    The third gap, in integrated management planning, has improved 
markedly, but inadequate resources are available for the mandated 
preparation of integrated resource management plans, the larger context 
for forest management planning. Even now only 40 percent of tribes have 
up-to-date forest management plans.
    The fourth gap, in trust oversight, has seen the least progress on 
the ground. The BIA is still in the untenable position of ``pitching 
and umpiring'', that is providing management services and advice and 
overseeing the adequacy of those services and advice. IFMAT II strongly 
believes that the recommendation of IFMAT I for independent oversight 
of forest trust responsibility needs to be implemented on the ground.

Specific Recommendations

    Innovative management of Indian forests under the principles of 
adaptive ecosystem management is happening on many reservations, and 
the quality and quantity of tribal forest management staff are, 
increasing. Indian forests remain a vital part of tribal life on 
reservations in every part of the contiguous United States and Alaska. 
Timber production, non-timber forest products, grazing, and wildlife 
management provide revenues and jobs for tribal members and enhance the 
economic life of surrounding communities. Subsistence lifestyles and 
forest-derived foods and medicines are important to many tribal 
members. Indian forests often play a role in religious observance and 
artistic expression. Forest protection and use remain core values on 
forested reservations. A number of tribes are increasing their holdings 
modestly through fee purchase of forests, and others are increasing 
their forest holdings by reclaiming lost tribal lands. IFMAT II 
believes that if the actions described in our report are taken, this 
generally positive picture will be maintained and improved at an 
acceptable rate.

Funding

    IFMAT I identified a large gap between funding provided by the 
Federal Government for national forests and Federal Government funding 
provided for Indian forests. In 1991 Indian forestry (including fire 
funds) received only about one-third the amount per acre as was 
invested in the national forests. In 2001, Indian forestry received 
about two-thirds the amount per acre as was invested in the national 
forests, or 68 cents on the dollar. This gap has narrowed for two 
reasons: (1) a large reduction in Federal funding for forest management 
on national forests, and (2) a significant increase in funding for 
fuels management, fire preparedness, and emergency stabilization 
activities on Indian forests. Funding for fire management has increased 
sharply over the last 10 years in recognition of the fuel buildup on 
Indian (and other) forests due to past management practices and forest 
health needs. Restrictions on the use of fuels management funds limit 
the ability to integrate them with other needed silvicultural 
treatments into a comprehensive program of forest management that 
includes wild land fire hazard and risk abatement. Protecting forest 
health will be an ongoing task that is most efficiently addressed 
through integrated management. Thus, we recommend making fire funding a 
permanent part of the base funding for Indian forestry and at the same 
time removing barriers that reduce tribes' ability to integrate fire 
funding into the total forest and natural resource management program. 
We further recommend that Federal forestry allocations be raised to a 
total of $181 million annually.

Forest Health

    There has been overall improvement in the silvicultural practices 
and management of forest health issues (fire, insects, disease) on 
Indian forests in the decade since IFMAT I. This is resulting in 
innovative silvicultural prescriptions and improved integrated 
management on the ground. Indian forest managers have made significant 
strides in addressing wildfire risk during the last decade. However, 
acreage treated for hazardous fuels reduction remains lower than 
needed. In an important related area, good progress has been made on 
some Indian forests in road location, construction and maintenance. 
Despite improvement, there is considerable risk that efforts to combat 
forest health problems and institute sustainable management for all 
forest resources will be overwhelmed by a combination of funding 
shortfalls, personnel shortages, and ecosystem-based problems (insects, 
disease, and fire). Immediate and focused action is needed to improve 
the rate of forest health treatment response, utilize small and low 
quality logs and strengthen staffing. Some actions can be taken without 
additional funds (for example, funding for fire and other forestry 
activities could be better integrated to reduce administrative costs 
and improve the efficiency and effectiveness of silvicultural 
treatments to accomplish management objectives) but some require 
substantial and immediate investment. If better forest health is to be 
achieved and the promise of Indian forestry described in IFMAT-I is to 
be realized, increases in investment, reduced burden from unfunded 
mandates, and immediate action are needed. We recommend that aggressive 
treatment of Indian lands for forest health maintenance and improvement 
be a major use of the recommended added funding.

Staffing

    The number of tribes that compact or contract to provide forestry 
services and functions on their own reservations has nearly doubled 
since 1991. Despite this, staffing for Indian forest management (both 
BIA and tribal), exclusive of fire programs, has declined 26 percent. 
Overall staffing for Indian forestry programs when fire is included has 
increased slightly from 1991 levels, and the percentage of workers with 
professional qualifications has increased. More tribes now employ 
specialists in wildlife biology, hydrology and landscape analysis. At 
the same time, BIA technical assistance staffing has significantly 
declined over the last decade. Tribes receive less assistance from BIA 
in forest inventory, management planning, marketing and economics. Key 
personnel are retiring or getting ready to retire; fire funding caused 
personnel shifts from forestry to fire that have not been entirely made 
up; and the supply of new Indian professionals is insufficient to meet 
demand. We recommend that additional education and training for tribal 
members in key specialities be given additional support and that BIA 
technical assistance levels be brought at least back to the 1991 
levels.

Trust Oversight

    We believe that the ``triangulation'' model for trust oversight 
suggested in IFMAT I remains an appropriate conceptual model for trust 
oversight. Its virtues are (1) it separates the BIA's role as manager 
and provider of technical information from its role as arbiter of how 
effective the management and information is; (2) it places tribal goals 
even more firmly as the driving force of management plans and actions; 
and (3) it allows appropriate differentiation of tribal goals and 
activities among the many and diverse tribes that manage forests. Under 
this system, tribes would create management plans based on tribal goals 
with the support, if needed, of BIA technical specialists. These plans 
would then be negotiated with the Secretary of the Interior, and when 
in place, would for the basis for evaluation of trust oversight 
performance. Both BIA and tribal performance in pursuit of the goals 
would be monitored by a commission independent of the Secretary and the 
BIA, in a manner consistent with tribal sovereignty and Federal law. 
Responsibility for delivering the natural resource management program 
would be placed under a single manager for each tribe or tribal forest. 
In the complex setting of current forest management, actions taken 
today have long term effects on many resources. We believe the trustee 
must: (1) require that specific information from each tribe (integrated 
resource plans, cumulative effects analysis) be developed; (2) assure 
that the beneficiary tribe clearly understands the possible 
consequences of forest management activities as tribal goals are 
pursued; and (3) have a truly independent mechanism for assessment. 
Thus we recommend that a management and oversight structure be put in 
place to insure effective and independent oversight of plans that 
reflect the visions of individual tribes for sustaining their forests.

Conclusion

    Our report provides many other findings and recommendations, all 
derived from our careful conversations with tribal members, BIA and 
tribal foresters and resource managers and on the ground observation, 
data collection and analysis. We hope you will give them all careful 
attention and thought. However, I must stress again, as did President 
Colegrove, that the IFMAT reports themselves do not present mandates. 
Ours is simply another view of this vital part of the forest resources 
of America and the world. We do think the process of recurring, 
independent assessments has great merit and utility and should be 
regularized and continued. Indeed, we would like to see this process 
more broadly applied in natural resource management and forestry.
    Indian forests present a unique window into the interaction of 
forests and people; in this instance people who care deeply about the 
land and nature and live intimately with both. In this sense, as well 
as in the sense of forming a major part of the diminished heritage of 
important and vital people, they are a major asset, obligation and 
opportunity for us all.
    Mr. Chairman, that concludes my remarks. I would be pleased to 
respond to any questions you may have.
                                 ______
                                 

  Prepared Statement of Aurene M. Martin, Principal Deputy Assistant 
   Secretary, Bureau of Indian Affairs, Department of the Interior, 
                             Washington, DC

    Good morning, Mr. Chairman, Mr. Vice Chairman and Members of the 
Committee. I am pleased to be here today to provide the views of the 
Department of the Interior on An Assessment of Indian Forest and Forest 
Management in the United States, also known as the Indian Forest 
Management Assessment Report II (Report). The 1990 National Indian 
Forest Resources Management Act directs the Secretary of the Interior 
to obtain an independent assessment of the status and management of 
Indian forest resources every 10 years, Pursuant to the Act, this is 
the second report assessing Indian forests and forestry management. The 
recommendations included within this Report provide the Department with 
feedback to better improve the delivery and management of forestry 
services provided to federally recognized tribes and individual Indian 
owners.
    Indian forests cover 17 million acres with a commercial timber 
volume of approximately 42 billion board feet with an annual allowable 
harvest of 767 million board feet. Indian forests are located on 275 
reservations in 26 states. Forest management activities, consist of 
forest inventory and management planning including the development of 
Integrated Resource Management Plans, forest products marketing timber 
sale management, forest projection, woodland management forest 
productivity enhancement and intensive forest development procedures. 
These activities ensure the sustainable management of Indian forests 
and provide for natural resource, protection.
    The Bureau of Indian Affairs (BIA) Division of Forestry serves 
Indian communities by managing or assisting tribes and individual 
Indians with the management of their forests consistent with tribal 
goals and objectives identified in forest management plans or 
integrated resource management plans.
    In 1993, An Assessment of Indian Forests & Forest Management in the 
United States was developed by an independent group of nationally 
recognized forestry exports pursuant to a contract with the Intertribal 
Timber Council (ITC). This first report identified four areas in need 
of improvement to better manage Indian forests, as follows: (1) the 
inconsistency between expressed tribal goals for Indian forests and the 
management paradigm actually applied; (2) the disparity in funding of 
forest management activities between Indian and other similar Federal, 
state and private lands; (3) the relative lack of coordinated resource 
planning and management; and (4) the need for a better method of 
setting and overseeing trust standards for Indian forestry.
    The 2003 Report is a result of a similar contract with the ITC and 
was produced by the same group of nationally recognized forestry 
experts who produced the first report. The Report recognizes that the 
overall management of Indian forests has improved and been modified to 
better meet the needs of Indian tribes, and individual Indian owners. 
In addition, the Report indicates that this improvement is due to the 
efforts of both tribal organizations and the BIA. Moreover, the Report 
concludes that there has been substantial progress toward 
sustainability in Indian forests since 1993.
    The 2003 Report recognizes many achievements in three of the four 
areas identified as needed for improvement. The first area of 
improvement has been a reduction of the inconsistency between expressed 
tribal goals for Indian forests and the governing forestry management 
practices. The Report identifies increasing tribal participation in 
forest management. In fact, the number of tribes that have partially 
and fully contracted or compacted management services for their own 
forests has increased from a total of 64 in 1991 to a total of 121 in 
2001. The BIA has made improvements in coordination and cooperation 
with tribes and individual Indians. This partnership between the tribes 
and the Federal Government has helped to develop a more unified and 
consistent vision for managing the forests by incorporating both tribal 
and Federal needs.
    The second area of improvement identified in the 1993 Report was 
the need for increased funding for Indian forestry programs to diminish 
the funding disparity between Indian forestry programs and other 
comparable Federal, State, and private forestry programs. The 2003 
Reports notes that progress in this area has been made. The progress in 
this area is two-fold: (1) the increased funding provided for Indian 
lands under the National Fire Plan; and (2) a more efficient management 
of the Federal forests, As illustrated by the President's Healthy 
Forests Initiative, the Administration is committed to improving forest 
and rangeland health by investing in fuels treatment and related 
projects and by improving administrative procedures to ensure that 
projects get accomplished. The Department has significantly increased 
funding since 2001 for fuels treatment and other forestry activities to 
help create and maintain healthy, and sustainable forests. The 
Department will continue to maintain forest and rangeland health as a 
high priority.
    The third area of identified in the 2003 Report showing marked 
improvement is that of coordinated or integrated planning. Improvements 
in forest management planning were evident by the progress shown in the 
preparation and implementation of Integrated Resource Management Plans 
(IRMPs). The Department has recognized the importance of forest and 
integrated resource planning. In the fiscal year 2004 appropriations, 
the Administration requested and received a $1 million increase in the 
forestry non-recurring fund for Integrated Resource Management 
Planning. In addition, the President's fiscal year 2005 Budget also 
includes a program increase of $1.0 million for the development of 
forest management plans.
    The 2003 Report claimed that little progress had been made on the 
fourth identified area, that of setting of trust standards and trust 
oversight. The Department recognizes that the main point of this 
Report's recommendation is the creation of an Independent Trust 
Oversight organization outside of the Department. The Department 
strongly objects to this recommendation. The Committee is well aware of 
the huge investments in trust reform that have been made over the past 
few years. The Department believes that, with the realignment of the 
Bureau of Indian Affairs and the Office of Special Trustee for American 
Indians, we have made significant progress in the improvement of our 
trust oversight capability.
    The Report also contained a number of recommendations, which the 
Department is in the process of reviewing. At initial reading of the 
Report, the Department believes a number of recommendations will 
complement and enhance the President's commitment to healthy forests.
    Thank you for the opportunity to present the views of the 
Department on this important report, I will be happy to answer any 
questions you may have.

                                 <all>

</pre></body></html>
